LIONEL M. LAVENUE
571.203.2750
lionel.lavenue@finnegan.com
May 28, 2021
VIA ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk, United States Supreme Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

TCL Communication Technology Holdings, Limited, TCT Mobile Limited,
TCT Mobile Limited, TCT Mobile (US) Inc. v. Godo Kaisha IP Bridge 1,
No. 20-1545

Dear Mr. Harris:
Pursuant to this Court’s order of March 19, 2020, petitioners in the above-captioned case
respectfully request that the Court delay distribution of the petition for a writ of certiorari by one
week, the next available distribution date falling on June 16, 2021. The petition is currently
scheduled for distribution on June 8, 2021, for consideration on June 24, 2021.
In addition to the heavy press of other matters, petitioners’ counsel are dealing with
logistical and other difficulties related to COVID-19 that has complicated their ability to prepare
and finalize a reply brief that will be helpful to the Court. This one-week delay returns the
schedule of the petition to close to its original schedule, the petition having been filed on May 3,
2021. Thus, the case’s disposition will not be unduly delayed.
Respondents’ counsel has informed us that they oppose this request.
Thank you very much for your time, attention, and assistance.
Sincerely,
/s/ Lionel M. Lavenue
Lionel M. Lavenue
cc:

All counsel of record
Service list attached

1875 EXPLORER STREET, SUITE 800 | RESTON, VA 20190-6023
PHONE: 202.408.4000 | FAX: 202.408.4400

SERVICE LIST:
Douglas Hallward-Driemeier
ROPES & GRAY LLP
2099 Pennsylvania Avenue, NW
Washington, DC 20006
(202) 508-4600
Douglas.Hallward-Driemeier
@ropesgray.com
Counsel for Respondent

FINNEGAN, HENDERSON, FARABOW, GARRETT & DUNNER, LLP

